                U.S. Department of Agriculture
                   Office of Inspector General
                          Great Plains Region




        Audit Report


     Farm Service Agency
  Hurricane Relief Initiatives:
Emergency Forestry Conservation
       Reserve Program




                      Report No. 03601-24-KC
                             September 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:         September 17, 2008

REPLY TO
ATTN OF:      03601-24-KC

TO:           Teresa C. Lasseter
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff

FROM:         Robert W. Young                     /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Emergency Forestry Conservation Reserve Program


This report presents the results of our review of the Farm Service Agency’s controls over
the Hurricane Relief Initiatives: Emergency Forestry Conservation Reserve Program.
Your response to the official draft, dated September 2, 2008, is included as exhibit C.
Excerpts of your response and the Office of Inspector General’s position are incorporated
into the Findings and Recommendations section of the report. Based on your response,
we were able to reach management decision on all of the report’s six recommendations.
Please follow your agency’s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff
during this audit.
Executive Summary
Farm Service Agency Hurricane Relief Initiatives: Emergency Forestry Conservation
Reserve Program (Audit Report 03601-24-KC)

Results in Brief                      Following hurricanes Dennis, Katrina, Ophelia, Rita, and Wilma in 2005, the
                                      U.S. Department of Agriculture’s Farm Service Agency (FSA) carried out an
                                      emergency pilot program to restore and enhance private non-industrial
                                      forestland damaged as a result of the hurricanes. This program, known as the
                                      Emergency Forestry Conservation Reserve Program (EFCRP), allocated
                                      $504.1 million to help such producers in Alabama, Florida, Louisiana,
                                      Mississippi, North Carolina, and Texas. In exchange for cost-share assistance
                                      as well as either a lump sum payment or annual rental payments, EFCRP
                                      participants agree to place their land under contract for 10 years. The Office
                                      of Inspector General (OIG) initiated this audit to assess FSA’s
                                      implementation and administration of EFCRP. Specifically, we performed
                                      this review to evaluate the effectiveness of program delivery and the
                                      adequacy of its management controls over the selection and funding of offers 1
                                      and the eligibility of producers and land. We also planned to assess
                                      compliance with contract provisions, but we conducted our review during
                                      signup, and the contracts were not yet completed. Also, FSA had not
                                      implemented its procedures for reviewing compliance.

                                      In January 2007, 1,440 offers consisting of 180,176 acres had been accepted
                                      into the EFCRP. The contracts associated with these offers represent about
                                      $53 million to be paid in annual rental payments. Of the 1,440 accepted
                                      offers, we reviewed 55 offers with payments to be made, totaling about $2.6
                                      million. These offers and acres were located in Alabama, Mississippi, and
                                      Texas.

                                      While evaluating the effectiveness of FSA’s program delivery, we found that
                                      it did not correctly and consistently determine EFCRP eligibility. At the time
                                      of our site visits, payments had not yet been made. Our review of 55 offers
                                      identified potential overpayments of $814,430 for 11 offers. (Of the $814,430
                                      potential overpayments that we identified, FSA corrected payments by
                                      $655,520 during our fieldwork.) Unclear procedures and terminology led to
                                      incorrect or questionable determinations on 4 of these 11, totaling $129,540
                                      of the potential overpayments found. On one of these four offers, we found
                                      the applicants were two entities whose five members owned part of a sawmill
                                      and were allowed to enroll their land in EFCRP even though program
                                      guidelines do not permit owners principally engaged in the primary
                                      processing of raw wood products to participate. Because the guidelines do not
                                      specify what it means to be principally engaged in the primary processing of

1
  Producers will offer entire tracts of forestland for participation in EFCRP. Foresters will then evaluate the offered property, and FSA will select the best
offers for development of both a conservation plan and contract.
USDA/OIG-A/03601-24-KC                                                                                                                                Page i
                                      raw wood products, and because each member owned 25 percent or less of
                                      the sawmill, FSA approved $86,080 in payments to these applicants. 2 Under
                                      the same guidelines, the same entities were determined not eligible for the
                                      program when they applied for EFCRP on a tract of land located in another
                                      State.

                                      In other cases, State officials processed offers differently than their
                                      counterparts in other States. For example, Alabama, Mississippi, and Texas
                                      State forestry agency officials, whom FSA relied on for technical assistance,
                                      used different methods to calculate the value of damaged trees. Each method
                                      resulted in different loss percentages. FSA procedures did not specify a
                                      method for calculating the value of damaged trees. Therefore, eligibility
                                      determinations for individual offers were processed differently, based on the
                                      location of the producer’s land. We also concluded that another aspect of the
                                      State forestry agencies’ methodology resulted in overestimation of damage
                                      from eligible hurricanes. Rather than using the best evidence available to
                                      determine the value losses of individual producers, State forestry agency
                                      personnel assigned 100 percent damage to offered acres that had been
                                      clear-cut prior to their evaluation. This methodology would have affected the
                                      rankings if the agency had used the Benefits Index 3 to rank the offers, because
                                      producers with 100 percent damage would receive more points within the
                                      Benefits Index than someone with less damage. We also found that some
                                      Benefits Index terminology was not defined clearly enough to ensure
                                      consistent treatment of offers. Although FSA did not need to use the Benefits
                                      Index for EFCRP, it has relied on it for prior programs and it will continue to
                                      be used in the future.

                                      To meet legislatively prescribed program deadlines, the agency worked
                                      swiftly to implement EFCRP. However, FSA did not require second party or
                                      supervisory reviews for this program, which would likely have exposed errors
                                      or irregularities found on seven ($684,890 of the $814,690) offers.

                                      At the time contracts were signed in December 2006, final conservation plans
                                      had not been drafted for all contracts as required by program guidelines.
                                      Consequently, in August and September 2007, we followed up and reviewed
                                      six final conservation plans which showed the practices required to restore
                                      the economic value of the forest land. We also confirmed with FSA
                                      Mississippi State officials that all required plans were customized to the land
                                      offered. Therefore, we are not recommending additional corrective actions.

                                      The audit was conducted in conjunction with the President’s Council on
                                      Integrity and Efficiency (PCIE) as part of its examination of the Federal

2
  Corporations whose stocks are publicly traded or owners or lessees principally engaged in the primary processing of raw wood products are excluded
from EFCRP.
3
  FSA will select producers for enrollment using the Benefits Index to rank offers by assigning points, based on the offered land’s potential contribution to
preventing soil erosion, improving water quality, enhancing wildlife habitat, and mitigating economic losses caused by the 2005 hurricanes.
USDA/OIG-A/03601-24-KC                                                                                                                              Page ii
                   Government’s relief efforts in the aftermath of Hurricanes Katrina and Rita.
                   As such, a copy of this report will be forwarded to the PCIE Homeland
                   Security Working Group, which is coordinating Inspector General reviews of
                   this important subject.

Recommendations
In Brief           For future EFCRP signups, FSA should clarify guidelines and terminology
                   currently subject to interpretation by the agency’s State and county
                   employees and State forestry agency personnel. Additionally, FSA should
                   require second party reviews or supervisory reviews to ensure offers are
                   eligible before accepting EFCRP contracts. Finally, FSA should review all
                   questionable EFCRP offers not corrected as a result of our review, and
                   determine and take appropriate corrective action.

FSA Response       FSA agreed with the recommendations in the report. We have incorporated
                   FSA’s response into the Findings and Recommendations section of the report.
                   The response to the draft report, dated September 2, 2008, is included as
                   exhibit C.

OIG Position       Based on FSA’s response, we accept management decision on all six of the
                   report’s recommendations.




USDA/OIG-A/03601-24-KC                                                                   Page iii
Abbreviations Used in This Report


2005 Hurricanes     2005 Hurricanes Katrina, Ophelia, Rita, Dennis, and Wilma
2006 Act            2006 Emergency Appropriations Act
CCC                 Commodity Credit Corporation
CRP                 Conservation Reserve Program
EFCRP               Emergency Forestry Conservation Reserve Program
FSA                 Farm Service Agency
OIG                 Office of Inspector General
PCIE                President’s Council on Integrity and Efficiency
USDA                Department of Agriculture




USDA/OIG-A/03601-24-KC                                                          Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1            Eligibility Determinations ......................................................................................... 3

        Finding 1                   FSA EFCRP Procedures for Eligibility Were Unclear .................................... 3
                                    Recommendation 1 ........................................................................................ 10
                                    Recommendation 2 ........................................................................................ 11
                                    Recommendation 3 ........................................................................................ 12
                                    Recommendation 4 ........................................................................................ 12
        Finding 2                   Administrative Controls over Eligibility........................................................ 13
                                    Recommendation 5 ........................................................................................ 15
                                    Recommendation 6 ........................................................................................ 16

Scope and Methodology........................................................................................................................ 17

Exhibit A – Summary of Monetary Results ....................................................................................... 19
Exhibit B – Summary of Errors .......................................................................................................... 20
Exhibit C – Agency Response .............................................................................................................. 21




USDA/OIG-A/03601-24-KC                                                                                                                      Page v
Background and Objectives
Background                          As part of the Department of Agriculture (USDA), the Farm Service Agency
                                    (FSA) assists producers whose land has been damaged by natural disasters,
                                    such as hurricanes. In addition, FSA helps protect America’s natural resources
                                    through a variety of conservation programs, including the Conservation
                                    Reserve Program (CRP). CRP provides annual rental payments and cost-share
                                    assistance to landowners or operators 4 who establish approved conservation
                                    practices that reduce erosion, improve water quality, and increase wildlife
                                    populations.

                                    In 2005, Hurricanes Katrina, Ophelia, Rita, Dennis, and Wilma
                                    (2005 hurricanes) struck the Atlantic and Gulf Coast regions of the United
                                    States. Initial estimates showed that the 2005 hurricanes damaged more than
                                    4 million acres of timber in Alabama, Florida, Louisiana, Mississippi, and
                                    Texas. In response, the Emergency Forestry Conservation Reserve Program
                                    (EFCRP) was enacted on December 30, 2005, under the “2006 Emergency
                                    Appropriations Act” (2006 Act). 5 Generally, the 2006 Act amended the “Food
                                    Security Act of 1985” 6 to authorize EFCRP to enroll certain private
                                    non-industrial forestland that experienced a loss of 35 percent or more of
                                    merchantable timber in the States suffering forestry damage directly related to
                                    the 2005 hurricanes. This emphasis on forestland timber is in contrast to the
                                    broader CRP which targets certain cropland and marginal pastureland for
                                    restoration and enhancement.

                                    EFCRP was allocated $504.1 million to help producers begin the process of
                                    restoring and enhancing their forestland damaged by the hurricanes. 7 When
                                    evaluating land for EFCRP, FSA was to rank the land based on potential
                                    contribution to preventing soil erosion, improving water quality, enhancing
                                    wildlife habitat, and mitigating economic losses caused by the 2005
                                    hurricanes.

                                    EFCRP provided funds to 261 counties in Alabama, Florida, Louisiana,
                                    Mississippi, North Carolina, and Texas that the President or Secretary
                                    designated as hurricane disaster counties. 8 In order to receive assistance
                                    through EFCRP, producers must own or operate private non-industrial
                                    forestland that experienced a loss of 35 percent or more of merchantable
                                    timber as a direct result of the 2005 hurricanes. Merchantable timber is defined
                                    in the 2006 Act as timber on private non-industrial forestland on which the
4
  Operators must have controlled the land for 12 months prior to signup and must control the property for the entire contract period, according to FSA
Handbook 2-CRP (Revision 4), subparagraph 82 C, dated July 17, 2006.
5
  Division B of Public Law 109-148.
6
  Public Law 99-198.
7
  The 2006 Act appropriated $404.1 million for EFCRP, with an additional $100 million authorized June 15, 2006, under the “Emergency Agricultural
Disaster Assistance Act of 2006” (Title III of Public Law 109-234).
8
  North Carolina was included in the program because it had Secretarial or Presidential declared disaster counties due to Hurricane Ophelia; however, there
were no applications for this program in North Carolina.
USDA/OIG-A/03601-24-KC                                                                                                                        Page 1
                                        average tree has a trunk diameter of at least 6 inches when measured at least
                                        4½ feet above the ground.

                                        EFCRP sign-up began at local FSA offices on July 17, 2006, and ended on
                                        October 20, 2006. Producers submitted offers to enroll forestland damaged by
                                        the 2005 hurricanes in EFCRP. FSA contracted with State forestry agencies
                                        who performed site visits to offered tracts. 9 On each tract, the forester
                                        evaluated the environmental benefits that might be obtained through
                                        enrollment in EFCRP and performed an evaluation of the timber stand by
                                        selecting random plots and determining the timber values before and after the
                                        hurricanes. 10 Timber values prior to the hurricane were generally determined
                                        by assuming all trees were undamaged, and post hurricane values were
                                        generally determined by subtracting the estimated value of remaining
                                        undamaged trees from the estimated value prior to the hurricanes. State
                                        foresters also determined whether land offered contained merchantable timber
                                        and whether it was private non-industrial forestland.

                                        After foresters completed their evaluations, FSA had planned to select eligible
                                        offers for enrollment based on a Benefits Index to be used in ranking offers.
                                        The Benefits Index assigned points which reflected potential contributions to
                                        preventing soil erosion, improving water quality, enhancing wildlife habitat,
                                        and mitigating economic losses caused by the 2005 hurricanes. During three
                                        designated ranking periods, FSA was to use the Benefits Index to rank and
                                        determine acceptable offers. However, FSA did not have to use the Benefits
                                        Index rankings to select properties for EFCRP, because the program had
                                        sufficient funds for FSA to accept all eligible offers.

                                        Producers who agree to enroll their acreage in EFCRP receive two types of
                                        payments. They receive up to 50 percent cost-share assistance for activities
                                        like preparing sites and replanting tree stands. In addition, they may choose to
                                        receive either 10 years of annual rental payments or one lump sum rental
                                        payment in return for meeting the requirements of their conservation plan. A
                                        conservation plan, which State foresters develop with input from producers, is
                                        a mandatory component of the 10-year EFCRP contract. The plan may include
                                        requirements to restore land through site preparation and the planting of tree
                                        species similar to those that existed on the land prior to the hurricane.

                                        As of January 10, 2007, 1,440 offers on 180,176 acres had been accepted into
                                        the program. These contracts represent about $53 million in total annual rental
                                        payments.

Objectives                              We performed the review to evaluate the effectiveness of program delivery
                                        and the adequacy of FSA’s management controls related to the selection and
                                        funding of offers and the eligibility of producers and land.
9
    The U.S. Forest Service coordinated the process the State forestry agencies used to evaluate the offered land.
10
     The evaluation included the identification of water sources, the presence of or potential for erosion, and potential benefits to wildlife.
USDA/OIG-A/03601-24-KC                                                                                                                            Page 2
Findings and Recommendations
Section 1             Eligibility Determinations

                                    As part of the initiative to mitigate the economic losses suffered by producers
                                    in hurricane damaged areas, FSA implemented EFCRP. However, we found
                                    eligibility was not always correctly and consistently determined. Of the
                                    55 EFCRP offers reviewed, we found that FSA county officials and State
                                    forestry agencies made incorrect or questionable determinations on the
                                    eligibility of land or producers associated with 11 offers (20 percent).

                                       •     Four of these incorrect or questionable determinations occurred because
                                             the agency’s procedures did not provide clear eligibility guidelines.
                                       •     Seven other incorrect or questionable determinations occurred because
                                             FSA did not implement adequate controls, such as second party or
                                             supervisory reviews, over eligibility determinations.

                                    FSA considered offers acceptable even though producers or land associated
                                    with these offers did not meet eligibility requirements. 11 Without corrective
                                    action by agency personnel as the result of our fieldwork, producers associated
                                    with the 11 offers would have been overpaid a total of $814,430 (see exhibit
                                    A). (Of the $814,430 potential overpayments that we identified, FSA took
                                    corrective actions to reduce payments by $655,520 while we were performing
                                    fieldwork.)

                                    EFCRP signup began July 17, 2006, on which date FSA also published its
                                    amended CRP procedures to provide instructions for EFCRP. 12 EFCRP signup
                                    ended on October 20, 2006, and FSA personnel were charged with processing
                                    EFCRP offers timely to meet the legislated program deadline of
                                    December 31, 2006. Basic program eligibility was based on whether producers
                                    with private non-industrial forestland had at least a 35 percent loss in value of
                                    merchantable timber due to an eligible hurricane.


Finding 1                           FSA EFCRP Procedures for Eligibility Were Unclear

                                    We found that four offers with incorrect or questionable eligibility
                                    determinations occurred, in part, due to ambiguity in FSA’s procedures for
                                    administering the program. We identified $129,540 of incorrect or
                                    questionable payments that occurred due to these ambiguities.


11
   At the time of our review, four offers included some ineligible acres (see Producers A, C, H, K for specific explanations); four offers were ineligible as
offered (see Producers E, F, G, I for specific explanations); the eligibility of one producer was questionable (Producer D), and the foresters determined two
offers did not have 35 percent damage when they re-evaluated the tract after OIG’s field visits (Producers B, J). See exhibit B.
12
   See FSA Handbook 2-CRP (Rev. 4), “Agricultural Conservation Program,” Part 6, Section 5, added by Amendment 8, dated July 17, 2006.
USDA/OIG-A/03601-24-KC                                                                                                                          Page 3
                                    Controls Were Not Adequate to Preclude the Enrollment of Land Clear-cut
                                    Before the Qualifying Hurricanes

                                    We found three offers that were considered eligible even though all or part of
                                    the offered acres had been clear-cut 13 prior to the qualifying hurricanes (see
                                    Producers A, B, and C in exhibit B). Eligible land is defined, in part, as land
                                    on a tract that, before the hurricane, was merchantable timber with an average
                                    tree diameter of at least 6 inches at 4½ feet above ground level; FSA’s
                                    procedures do not require county officials to verify with producers if and when
                                    acreage has been clear-cut. FSA national office officials stated that since a
                                    producer’s signature on the EFCRP offer is a certification that “the land to be
                                    enrolled in EFCRP . . . suffered damage due to a calendar year
                                    2005 hurricane,” they believed it unnecessary to verify whether the acreage
                                    had been clear-cut before the hurricane. They stated, however, that they would
                                    be willing to instruct the county office staff to ask producers if and when land
                                    was clear-cut. 14 As a result of errors on these three offers, FSA county offices
                                    would have issued incorrect payments totaling $43,460.

                                    FSA’s procedures for determining loss value provide an example stating that
                                    all acres clear-cut just prior to the hurricanes are ineligible. The procedures
                                    include the following example of determining loss relative to clear-cut
                                    acreage: if a producer with 100 acres of private non-industrial forestland
                                    clear-cut 48 of the 100 acres 1 month before the hurricane hit, only the
                                    52 remaining acres would be eligible for EFCRP. The clear-cut 48 acres would
                                    be ineligible. 15 If personnel are to properly make these determinations, they
                                    must be provided information on when land has been clear-cut, but the
                                    procedures for EFCRP do not require that they obtain this information from
                                    producers.

                                    Twenty-three (23) of the 55 offers in our sample included areas for which the
                                    State foresters had determined post-hurricane economic values of zero,
                                    indicating to us that the areas may have been clear-cut. Through EFCRP file
                                    reviews and interviews with the producers, foresters, and others as deemed
                                    necessary, we confirmed that in each of these 23 cases the areas with
                                    post-hurricane economic values of zero had, in fact, been clear-cut. In each
                                    case, we also determined when the areas had been clear-cut. Upon further
                                    review of the 23 EFCRP offers with clear-cut areas, we found that FSA had
                                    accepted 3 EFCRP offers on areas that were clear-cut prior to the eligible
                                    hurricanes. In these three cases, neither State foresters nor FSA county
                                    officials determined if and when offered acres had been clear-cut, and thus
                                    made incorrect eligibility determinations.


13
   Clear-cutting is a harvesting and regeneration method which removes all the trees (regardless of size) on an area. Clear-cutting is most used with species
like pine which require full sunlight to reproduce and grow well. Clear-cutting produces an even-aged forest stand.
14
   Computer software for the current EFCRP program has been modified to prompt the user to enter the participant’s response to a pre-hurricane timber
value eligibility statement.
15
   According to FSA Handbook 2-CRP (Rev. 4), subparagraph 150.6 C, “Examples of Determining Total Loss,” Example 3, dated July 17, 2006.
USDA/OIG-A/03601-24-KC                                                                                                                          Page 4
                                        In Mississippi, we found one producer had clear-cut a total of 172.6 acres on
                                        two tracts, 16 including 88 acres clear-cut before the hurricane. However, State
                                        foresters and FSA county officials who processed the offers for both tracts
                                        treated all acres as eligible. For one tract with 77.1 eligible acres, 54.1 acres
                                        were clear-cut prior to the hurricane. Therefore, these 54.1 acres should not be
                                        included in the total eligible acreage. As a result, the remaining 23 acres of
                                        forestland on the tract no longer met the minimal 35 percent damage threshold
                                        for the tract. For the second tract, 33.9 of the 95.5 eligible acres were clear-cut
                                        before the hurricane and, therefore, were ineligible for the program. The
                                        remaining 61.6 acres had damage in excess of the required 35 percent and
                                        were eligible. OIG photo 1 shows part of the 54.1 acres that were clear-cut
                                        prior to the hurricane.




                                                                             OIG Photo 1

                                        In Texas, the officials processing one offer were unaware that some acres had
                                        been clear-cut prior to the qualifying hurricane and thus treated all acres as
                                        eligible. On our field visit, we questioned the timing of the harvest of some
                                        acres. Upon our request, the forester contacted the producer and determined
                                        that 32 of 97 acres had been clear-cut prior to the hurricane.

                                        When we brought these three errors to the attention of FSA officials, they
                                        immediately took steps to reduce the acreages accordingly and thus prevented
                                        incorrect payments totaling $43,460. When questioned, producers for these
                                        offers readily stated that portions of the offered acres had been clear-cut prior
                                        to the hurricanes.


16
     Total acres for the two tracts was 320 acres.
USDA/OIG-A/03601-24-KC                                                                                            Page 5
                  We concluded that FSA should strengthen its procedures to require county
                  officials to ascertain the amount and timeframe of any acreage that has been
                  clear-cut. FSA has since modified its computer software for the current
                  EFCRP program to prompt the user to enter the participant’s response to a
                  pre-hurricane timber value eligibility statement.

                  We also noted that, in developing its Benefits Index ranking system for
                  EFCRP, FSA did not establish a consistent method for scoring clear-cut tracts.
                  When the anticipated number of applicants for the 2005 hurricane season did
                  not materialize, FSA had sufficient funds to approve all eligible EFCRP offers,
                  and the use of a ranking system to distribute program funds was unnecessary.
                  However, we determined that if the Benefits Index ranking system had been
                  used as designed, it would not have been adequate to ensure that all producers
                  were treated consistently because State forestry agencies established a policy
                  that areas clear-cut by the producer after the hurricanes were considered
                  100 percent damaged. As a result, the post hurricane value of timber stands
                  was underestimated; thus, the estimated value loss may have been overstated
                  for offers/producers with clear-cut areas.

                  Specifically, FSA determined the value lost as a result of the hurricanes by
                  subtracting the post-hurricane values from the pre-hurricane values. Both of
                  these values were determined by the State foresters through field visits and
                  inspections of the affected tracts. We noted that 23 of our 55 sample offers had
                  some area of clear-cut timber. We cannot determine the total amount of
                  overstatement; however, State forestry agency personnel’s policy of assigning
                  100 percent damage to clear-cut areas potentially understates the
                  post-hurricane value. OIG photo 2 shows an example of a clear-cut area that
                  was determined to be a 100 percent loss. The trees behind the clear-cut area do
                  not appear to be damaged.




                                                    OIG Photo 2
USDA/OIG-A/03601-24-KC                                                                   Page 6
                                     We attempted to more accurately determine the post-hurricane value for the
                                     clear-cut tracts through 1) interviews of producers to obtain timber sales data
                                     for the offered tracts, 2) interviews of timber salvage crews, and 3) analysis of
                                     timber cruise documents and receipts. 17 We were able to obtain additional data
                                     for 9 of the 23 tracts and determined that 1 of those 9 may not have had the
                                     35 percent damage required for eligibility, 7 tracts may have received points in
                                     the Benefits Index scoring process they were not entitled to, and 1 tract,
                                     despite overstated damages, may have received a proper score. These tracts
                                     may not have qualified for EFCRP if FSA had relied on the Benefits Index to
                                     determine program eligibility as it has regularly done in past programs and
                                     likely will again for future programs.

                                     In order to improve the consistency with which FSA implements its EFCRP
                                     procedures, it should require applicants to identify the location and timing of
                                     clear-cut areas that are offered for the program.

                                     Definition of Owners/Operators Principally Engaged in the Primary
                                     Processing of Raw Wood Products Needs To Be Clarified To Ensure
                                     Consistent Application.

                                     We found that applicants who may have been engaged in the primary
                                     processing of raw wood products were determined to be ineligible for EFCRP
                                     in one State but were determined eligible in another. Regulations and FSA’s
                                     EFCRP procedures related to eligibility state that corporations whose stocks
                                     are publicly traded, or owners or lessees who are principally engaged in the
                                     primary processing of raw wood products, are excluded from the definition of
                                     private non-industrial forest landowner for EFCRP purposes. 18 However,
                                     EFCRP guidelines do not clearly define what it means to be a producer
                                     principally engaged in the primary processing of raw wood products. As a
                                     result, the county office approved questionable payments of $86,080 on a
                                     sample tract in Alabama (see Producer D in exhibit B).

                                     Without a clear definition of what it means to be principally engaged in the
                                     primary processing of raw wood products, officials were left to interpret this
                                     language as they saw fit, and we found applicants determined eligible in one
                                     State were determined ineligible in another. For example, in Alabama, five
                                     cousins applied for EFCRP as two separate entities (one entity is owned by
                                     three siblings, and the other entity is owned by their two cousins); each entity
                                     had 50 percent ownership of the tract offered for EFCRP. The five cousins
                                     jointly owned a sawmill (corporation); not one of the cousins had more than
                                     25 percent ownership share of the sawmill. With the assistance of Alabama
                                     Forestry Commission officials, FSA county officials decided that, unless an
                                     applicant owned more than 50 percent of a sawmill, the applicant was not
                                     principally engaged in the primary processing of raw wood products. As none
17
     Timber cruising is the determination of timber volume and value (timber quality) for a tract of timber.
18
     Title 7, Code of Federal Regulations, sections 1410.2 and 1410.12, and FSA Handbook 2-CRP (Rev. 4), subparagraph 150.1 C, dated July 17, 2006.
USDA/OIG-A/03601-24-KC                                                                                                                     Page 7
                  of the applicants owned more than 50 percent of a sawmill, FSA county
                  officials determined both entities were eligible for EFCRP.

                  This sample tract was one of five tracts owned by the cousins and enrolled in
                  EFCRP in Alabama. These producers are to receive total payments of
                  $110,280 on the other four tracts in Alabama that were not included in our
                  sample. An Escambia County FSA official told us that the cousins also owned
                  land in Florida. We interviewed the Florida FSA officials for the county where
                  the cousins owned land and found that these cousins offered their land for
                  EFCRP in Florida. However, Florida Division of Forestry determined the land
                  was not private non-industrial forestland, so Florida FSA county officials
                  could not offer a contract for the program because the land did not meet the
                  eligibility requirements for EFCRP. The producers appealed this decision to
                  the National Appeals Division and were awaiting a decision at the time we
                  concluded our fieldwork in Alabama.

                  We discussed this issue with FSA national office officials during the audit.
                  They agreed that the determinations between States need to be consistent and
                  were working with the State offices and State forestry agencies to achieve that
                  end. They also indicated that determining private non-industrial forestland
                  under the current rules can be very subjective and, in this case, is compounded
                  by the lack of specific guidance used to determine who is principally engaged
                  in the primary processing of raw wood products.

                  In order to improve the consistency with which FSA implements its EFCRP
                  procedures and to clarify similar situations, the agency should revise its
                  procedures to include a precise definition of owners/operators principally
                  engaged in the primary processing of raw wood products.

                  FSA Needs to Clarify Its Procedures for Calculating the Values of Damaged
                  Trees

                  As part of determining the eligibility of EFCRP offers, State forestry agency
                  personnel were required to calculate the value of trees that were damaged and
                  undamaged on the producers’ property. We found, however, that State forestry
                  agency personnel in Alabama, Mississippi, and Texas used different methods
                  for calculating the values of damaged and undamaged trees. This occurred
                  because FSA’s EFCRP procedures do not provide a methodology for arriving
                  at these values. Without a defined methodology, FSA cannot ensure the
                  consistent treatment of producers, regardless of the locations of their land for
                  this or future EFCRPs.

                  FSA’s EFCRP procedures require that State foresters determine the percent of
                  loss for an offer, based on the difference between the pre-hurricane and
                  post-hurricane values of trees using the spring 2006 Timber Mart-South

USDA/OIG-A/03601-24-KC                                                                   Page 8
                                    prices. 19 The procedures, however, do not provide specific methodology for
                                    determining these values.

                                    Although the States used consistent timber prices, Alabama, Mississippi, and
                                    Texas State forestry agency officials each used different methodologies for
                                    determining the value of damaged and undamaged trees:

                                       •     Alabama Forestry Commission officials calculated undamaged value
                                             using tree species, diameter, and estimated height, and then calculated a
                                             damaged value based strictly on the diameter and estimated height of the
                                             damaged trees, regardless of species. 20 Diameters of trees were measured
                                             in 2-inch increments. 21

                                       •     Mississippi Forestry Commission officials assigned a value to damaged
                                             and undamaged trees based on tree species, estimated height, and
                                             diameter. Diameters of trees were measured in 1-inch increments.

                                       •     Texas Forest Service officials recorded tree species and diameter of both
                                             damaged and undamaged trees and then used a database of average tree
                                             heights to calculate each tree’s value. Diameters of trees were measured
                                             in 1-inch increments.

                                    Application of these different methods for calculating the value of damaged
                                    trees may result in different loss percentages for the same producer. For
                                    example, we recalculated loss percentages for all 25 tracts in our Mississippi
                                    sample using both Alabama’s and Texas’ methods for determining the value of
                                    damaged trees. Using Texas’ method, 7 of 25 tracts had loss percentages that
                                    differed by greater than 5 percent. Using Alabama’s method, 3 of 25 tracts had
                                    loss percentages that differed by greater than 5 percent.

                                    The U.S. Forest Service coordinator for EFCRP stated that he did not believe
                                    that small differences in methodology would have a significant effect on
                                    eligibility, so he did not specify a valuation method for all States to use.
                                    However, we found that in one case the difference in loss percentage would
                                    have affected the producer’s eligibility. Specifically, Mississippi State forestry
                                    officials determined that one producer suffered a 42 percent loss. The producer
                                    was eligible for annual rental payments because the loss exceeded EFCRP’s
                                    35 percent minimum. Had the producer’s land been located in Alabama,
                                    however, his loss percentage would have been calculated to be 26 percent, and
                                    his offer would have been determined ineligible.

                                    FSA should decide upon a specific methodology to determine the value of
                                    damaged trees and clarify its EFCRP procedures accordingly. Doing so will

19
   FSA Handbook 2-CRP (Rev. 4), subparagraphs 150.6 A and C, dated July 17, 2006.
20
   One county in Alabama assigned value to individual trees based on the tree species, estimated height, and diameter.
21
   If a tree had a measured diameter of 7.0-8.9 inches, forestry personnel would record it as 8 inches in diameter.
USDA/OIG-A/03601-24-KC                                                                                                   Page 9
                   improve the consistency with which FSA implements EFCRP for future
                   disasters and better ensure equitable treatment of producers by the different
                   States.

                   We conclude that in order to correctly and consistently determine the
                   eligibility of EFCRP offers, FSA should clarify relevant terminology and
                   procedures.

Recommendation 1

                   Issue policies and procedures that require applicants to identify the location
                   and timing of clear-cut areas that are offered for the program; provide States
                   with a precise definition related to owners or lessees principally engaged in the
                   primary processing of raw wood products; and establish a consistent method
                   for using species, diameter, and height to arrive at tree value.

                   FSA Response

                   “A CRP Notice is scheduled to be issued by November 1, 2008, to clarify FSA
                   policies and procedures regarding acres offered for EFCRP that have been
                   clear-cut, the definition of owners or lessees principally engaged in the
                   primary processing of raw wood products, and the method to be used by
                   technical service providers to arrive at tree value.

                   Regarding the clear-cut issue, we also conducted a conference call on
                   August 2, 2007, to clarify issues of EFCRP policy, including the identification
                   of clear-cut acres. We instructed State FSA office conservation program
                   specialists to notify county FSA office personnel to work with EFCRP
                   applicants and identify the location and timing of clear-cuts as part of the offer
                   process.

                   To ensure producer understanding, we further instructed county offices to
                   manually enter the statement “Producer certifies forester’s assessment of
                   pre-storm value accurately accounts for clear-cutting/thinning activities,” on
                   the form CRP-2F worksheet before the producer signs block 22 of the
                   CRP-2F. When applicants sign the CRP-2F, they are indicating the acreage
                   was merchantable timber and private, non-industrial forestland at the time of
                   the hurricane, signing the CRP-2F is binding and falsely reporting information
                   may jeopardize program benefits.

                   Concerning the definition related to processing of raw wood products.
                   Regulations at 7 CFR part 1410.2 exclude corporations whose stocks are
                   publicly traded or owners or lessees principally engaged in the primary
                   processing of raw wood products from the definition of private non-industrial
                   landowners. We have begun negotiation with the Forest Service and the
                   Natural Resources Conservation Service to further define producers
USDA/OIG-A/03601-24-KC                                                                     Page 10
                   principally engaged in the primary processing of raw wood products. We
                   anticipate this to be completed and a notice issued by November 1, 2008.

                   With respect to a consistent method to arrive at tree value, we convened a
                   meeting of State FSA office, Forest Service, and State forestry agency
                   personnel from the five States participating in EFCRP on
                   September 26-27, 2007, in Jackson, Mississippi. The purpose of the meeting
                   was to improve the effectiveness of EFCRP program delivery including the
                   development of a consistent method for using species, diameter and height to
                   arrive at tree value. All parties agreed to use one, consistent methodology.
                   Representative plots (plot radius of 26.33 feet) were agreed to be taken and the
                   number of trees tallied by species and degree of damage (undamaged pine,
                   damaged pine, undamaged hardwood, and damaged hardwood) and diameter
                   at breast height (4.5 feet above ground). Local volume tables (which consider
                   height in their calculations) are consulted to derive timber damage volume
                   estimates. Timber Mart South figures are then used to determine lost value.”

                   OIG Position

                   We accept FSA’s management decision.

Recommendation 2

                   Coordinate with State forestry agencies to establish clear procedures for
                   calculating the value of damaged trees.

                   FSA Response

                   “During the September 2007 meeting, there was an agreement to use one
                   consistent method to calculate economic loss. Following the meeting, the
                   Mississippi Forestry Commission developed standardized emergency forestry
                   programs field tally sheets and eligibility determination protocols. The
                   Mississippi Forestry Commission procedures were reviewed and agreed upon
                   by FSA, Forest Service, and State forestry agencies from the five participating
                   states.”

                   FSA also included these tally sheets and protocols plus other CRP information
                   in the documentation provided in exhibit C.

                   OIG Position

                   We accept FSA’s management decision.




USDA/OIG-A/03601-24-KC                                                                   Page 11
Recommendation 3

                   Clarify the Benefits Index ranking system to provide a method for more
                   accurately determining value of clear-cut acreage.

                   FSA Response

                   “We intend to issue a CRP Notice by November 1, 2008, instructing FSA
                   State and county offices to work with State forestry agency personnel to more
                   accurately determine economic value loss on clear-cut acreage.

                   Damage exhibited by forest trees from hurricanes will vary widely depending
                   upon the distance from the track of the storm and changes from straight line
                   wind effects to microburst and localized tornadoes. However, aerial
                   photography, satellite imagery, and adjoining forest stand damage can often be
                   used to determine stand damage. FSA offices will be instructed to use all
                   available documentation and other evidence to validate claims of 100 percent
                   loss of timber stand value due to qualifying storm events.”

                   OIG Position

                   We accept FSA’s management decision.

Recommendation 4

                   Review the offer for the case presented in this report (Producer D) that was not
                   corrected during the audit. (See exhibit A.) Determine and take appropriate
                   corrective action.

                   FSA Response

                   “In October 2007, the Deputy Director, National Appeals Division (NAD)
                   reversed a hearing officer's determination issued on May 16, 2007. In the
                   determination, the Hearing Officer upheld an FSA denial of nine EFCRP
                   applications (each for a different tract of land). FSA found that the land
                   Appellants offered did not meet the private non-industrial land eligibility
                   requirement. The Deputy Director of NAD concluded that FSA's adverse
                   decision was not consistent with the applicable laws and regulations and was
                   not supported by substantial evidence of record. The NAD Deputy Director
                   stated that Appellants' ownership of shares in a private, industrial forest
                   landowner corporation did not automatically make them ineligible for EFCRP
                   where they meet the private, non-industrial forestland criteria for establishing
                   eligibility. The NAD Deputy Director concluded that the Appellants were
                   private, non-industrial landowners and the land they offered eligible for the
                   EFCRP. This action established consistent treatment of Producer D in both
                   Alabama and Florida.”
USDA/OIG-A/03601-24-KC                                                                   Page 12
                                  OIG Position

                                  We accept FSA’s management decision.


Finding 2                         Administrative Controls over Eligibility

                                  We found that the eligibility of seven offers was not determined in accordance
                                  with provided procedure. This occurred because FSA county offices did not
                                  use second party or supervisory reviews to check for errors on EFCRP offers.
                                  Errors on these seven EFCRP offers would have resulted in FSA issuing
                                  $684,890 in incorrect annual payments.

                                  We discuss each of these seven errors, individually, below:

                                     •    For three offers in Alabama and Texas (Producers E, F, and G - see
                                          exhibit B), we found that producers did not include all private
                                          non-industrial forestland of merchantable timber on the offered tracts.
                                          This occurred because FSA county officials were not aware that all
                                          private non-industrial forestland of merchantable timber must be
                                          included in order for the applicant to be eligible, even though the
                                          procedure specifically requires all acres be included. 22 When we brought
                                          this problem to their attention, FSA county officials corrected the acres
                                          offered to include all eligible tract acres. Since some of the producers
                                          may have intentionally not included all lands on the tracts, the FSA
                                          county officials agreed that the producers would have been ineligible for
                                          the entire $508,400 in program payments. 23 This error could have been
                                          corrected if a second party review required matching eligible acres to
                                          offered acres. The FSA national office issued a memo reiterating that a
                                          producer must offer all private non-industrial forestland on his/her tract.

                                     •    For one offer in Texas (Producer H – see exhibit B), FSA county
                                          officials incorrectly identified 8.8 acres of non-forestland as
                                          merchantable timber. Eligible land must be merchantable timber with a
                                          diameter of at least 6 inches at 4½ feet above the ground. 24 Both the
                                          Texas Forest Service officials and FSA county office personnel had
                                          different total tract acres for this offer. After our review, FSA county
                                          officials and Texas Forest Service officials agreed that the original offer
                                          was overstated by 8.8 acres. This overstatement could have been
                                          identified and corrected by FSA through reconciliation of acres. The
                                          error also could have been identified by noting that the State forester did
                                          not list a 7-acre pond as non-merchantable timber, even though it
22
   FSA Handbook 2-CRP (Rev. 4), subparagraph 150.6 C, “Examples of Determining Total Loss,” Example 2, dated July 17, 2006.
23
   Subsequent to our audit, FSA revised procedure to allow for partial tracts to be offered (procedure dated July 11, 2007).
24
   FSA Handbook 2-CRP (Rev. 4), subparagraph 150.1 C, dated July 17, 2006.
USDA/OIG-A/03601-24-KC                                                                                                         Page 13
                                          appeared on the FSA map. Had it not been corrected, this error would
                                          have resulted in a total of $2,460 in incorrect payments.

                                    •     For another offer in Texas (Producer I – see exhibit B), FSA county
                                          officials improperly accepted as eligible a tract evaluated by a private
                                          forester. This occurred because FSA county personnel did not question
                                          the decision of the Texas Forest Service officials to use the eligibility
                                          determination of the private forester. EFCRP procedures state that a
                                          State forester will determine percent of loss. 25 FSA national office
                                          personnel agreed with our interpretation and issued a notice on
                                          October 20, 2006, clarifying private foresters are allowed to make
                                          recommendations, but State foresters are prohibited from using private
                                          forester recommendations as the sole source of evaluation. 26 Before
                                          receiving the private forester evaluation of the tract in question, the
                                          Texas Forest Service had calculated before and after values that
                                          indicated less than 35 percent damage and determined that the tract was
                                          ineligible. However, based on the recommendation from the Texas
                                          Forest Service, FSA county officials used the private forester’s
                                          calculations in order to judge the producer eligible. As a result of their
                                          error, FSA incorrectly approved $72,830 in total rental payments to this
                                          producer. This error was not corrected at the time of our field visits.

                                    •     In Alabama, a State forester incorrectly determined the damage on
                                          Producer J’s tract (see exhibit B). This occurred as the State forester
                                          erroneously evaluated timber outside the boundaries of the applicant’s
                                          offered tract. EFCRP regulations state that the State forester will do an
                                          onsite visit for each tract and evaluate the type of tree, quantity of tree,
                                          and quality of tree. 27 Based on the forester’s evaluation, FSA determined
                                          that the land had 77 percent damage and was eligible. We questioned
                                          whether the tract had the required damage during our field visit.
                                          Alabama Forestry Commission officials re-evaluated the tract and
                                          determined there was only 30.77 percent damage. This tract was,
                                          therefore, ineligible. Had it not been corrected, this error would have
                                          resulted in a total of $9,350 in incorrect payments.

                                    •     For another offer in Alabama, the FSA county office entered an incorrect
                                          number of eligible acres for Producer K (see exhibit B). EFCRP
                                          procedures state that for land to be eligible, it must have contained
                                          merchantable timber with a diameter of 6 inches at 4½ feet above the
                                          ground before the hurricane. 28 Although Alabama Forestry Commission
                                          officials designated only 73 acres on the 240 acre tract as merchantable,
                                          the FSA county office inadvertently entered the entire 240 acres as
25
   FSA Handbook 2-CRP (Rev. 4), subparagraph 150.3 A, step 6, dated July 17, 2006.
26
   October 20, 2006, memorandum from the FSA (national office) CRP Program Manager to the Alabama, Florida, Louisiana, Mississippi, and Texas FSA
State Executive Directors.
27
   FSA Handbook 2-CRP (Rev. 4), subparagraph 150.6 B, dated July 17, 2006.
28
   FSA Handbook 2-CRP (Rev. 4), subparagraph 150.1 C, dated July 17, 2006.
USDA/OIG-A/03601-24-KC                                                                                                             Page 14
                                            merchantable. This error might have been identified through second
                                            party review, but the EFCRP portion of the CRP handbook did not
                                            specifically require a second-party review. Had it not been corrected, this
                                            error would have resulted in a total of $91,850 in incorrect payments.

                                    At the time of our review, FSA had not conducted any other internal reviews.
                                    We concluded that these errors could have been identified if FSA required its
                                    county offices to conduct second party or supervisory reviews of EFCRP
                                    offers. During our site visits, FSA corrected six of these seven errors. FSA
                                    should review the seventh offer (where officials based eligibility solely on the
                                    evaluation of a private forester) and determine whether to take corrective
                                    action on that offer.

                                    Texas State FSA Officials Incorrectly Established a 10-acre Eligibility
                                    Minimum

                                    We also noted that Texas State FSA officials incorrectly established a 10-acre
                                    eligibility minimum, which meant that an indeterminable number of Texas
                                    producers may have been incorrectly excluded from the program. FSA
                                    procedures state that that no minimum acreage is authorized for eligibility. 29
                                    Texas State FSA officials and Texas Forest Service officials stated that
                                    contractors in Texas will not accept work on tracts less than 10 acres, so they
                                    felt they were justified in making the restriction. We could not determine
                                    exactly how many Texas producers may have been excluded from the
                                    program, because no record was kept of inquiries made from individuals with
                                    less than 10 acres. One Texas FSA county office official stated that the county
                                    office had received inquiries from people with less than 10 acres, but the
                                    producers were told the county office was not accepting offers for less than
                                    10 acres. When we informed the FSA national office about the restriction, it
                                    issued a memo to the State offices identifying the conflict and stating that the
                                    10-acre minimum should be withdrawn. The memo is dated the same day as
                                    the final day of sign-up. Alabama and Mississippi State FSA officials followed
                                    procedure and allowed tracts with less than 10 acres to be enrolled in EFCRP.
                                    In those States, a total of 26 producers with fewer than 10 acres are to receive
                                    $60,220 in total rental payments. Had these producers’ lands been located in
                                    Texas, the FSA State office would have excluded them from the program.

Recommendation 5

                                    Require second party and/or supervisory reviews by the county office before
                                    EFCRP contracts are finalized.




29
     FSA Handbook 2-CRP (Rev. 4), subparagraph 150.1 C, dated July 17, 2006, “No minimum acreage size is authorized for EFCRP.”
USDA/OIG-A/03601-24-KC                                                                                                            Page 15
                   FSA Response

                   “We intend to issue a CRP Notice by November 1, 2008, requiring
                   supervisory review of EFCRP offers before contracts are finalized. During the
                   September, 2007, meeting, State forestry agencies were instructed by the
                   Forest Service to provide comments in technical service provider section of
                   CRP-2F alerting FSA county office and supervisory review personnel to any
                   irregularities with producers offer.”

                   OIG Position

                   We accept FSA’s management decision.

Recommendation 6

                   Review the offer for the case in the report (Producer I) that was not corrected
                   during the audit. (See exhibit A.) Determine and take appropriate corrective
                   action.

                   FSA Response

                   “The FSA Texas State Office has been instructed to work with the Texas
                   Forest Service to ensure that the data and calculations used to complete the
                   CRP-2F worksheet in the subject case are performed by the Texas Forest
                   Service.

                   Based on the determinations made by the Texas Forest service, FSA intends to
                   take appropriate corrective action by December 15, 2008.”

                   OIG Position

                   We accept FSA’s management decision.




USDA/OIG-A/03601-24-KC                                                                  Page 16
Scope and Methodology
                                       Our review assessed the controls established by FSA to implement and
                                       administer EFCRP. We performed fieldwork from September 2006 through
                                       September 2007. Our review was conducted at the FSA national office in
                                       Washington, D.C., as well as State and county offices in Alabama,
                                       Mississippi, and Texas.

                                       We judgmentally selected Alabama, Mississippi, and Texas for review
                                       because producers in these States offered the most acres for EFCRP
                                       participation. Within each State, we visited a sample of judgmentally selected
                                       counties based on offer volume: Escambia, Mobile, and Monroe Counties in
                                       Alabama; Marion, Pike, and Walthall Counties in Mississippi; and Hardin
                                       County in Texas. Due to the unavailability of Texas Forest Service
                                       representatives, we were only able to visit one county in Texas.

                                       We reviewed 55 offers (19 judgmental, 36 random) for $2,578,580 of
                                       $53,337,952 on 1,440 accepted offers located in all 6 EFCRP States. 30 Of
                                       those 55 sample offers, 3 for $37,200 were eventually denied or withdrawn
                                       from the offer process.

                                       In conducting our review, we performed the following steps:

                                       •    Reviewed laws, regulations, procedures, and program documents to verify
                                            and evaluate program implementation.

                                       •    Interviewed agency personnel responsible for the administration of EFCRP
                                            operations at the national, State, and field office levels (which included
                                            Federal and State forestry personnel). We also interviewed landowners and
                                            timber salvage crews concerning clear-cut land.

                                       •    Reviewed five randomly selected offers and three to five judgmentally
                                            selected offers in each sampled county, along with their supporting
                                            documentation. 31 We generally limited our judgmental selections to offers
                                            recommended by the county office, offers with potential conflicts (county
                                            office staff, county committee members, etc.), offers with a large number
                                            of offered acres, offers with new producers, or offers with potential
                                            conflicting Federal cost-share contracts.

                                       •    Performed field visits to the land on selected offers to verify State forester
                                            determinations.

30
     Note there were no offers in North Carolina, even though the State was eligible for the program.
31
     In two counties, due to the limited number of offers, we reviewed all offers.
USDA/OIG-A/03601-24-KC                                                                                          Page 17
                  •   Reviewed six final conservation plans (two each from the three selected
                      counties in Mississippi) to verify the plans were customized to the land
                      offered. We also contacted the Mississippi State office to confirm that final
                      conservation plans were completed for the entire State.

                  We conducted this performance audit in accordance with generally accepted
                  government auditing standards. Those standards require that we plan and
                  perform the audit to obtain sufficient, appropriate evidence to provide a
                  reasonable basis for our findings and conclusions based on our audit
                  objectives. We believe that the evidence obtained provides a reasonable basis
                  for our findings and conclusions based on our audit objectives.




USDA/OIG-A/03601-24-KC                                                                   Page 18
Exhibit A – Summary of Monetary Results
                                                                                                                       Exhibit A – Page 1 of 1


 Finding                                               Description
               Recommendation                                                                Amount                     Category
 Number                                           (See also Exhibit B)
                                        Offers Included Acreage Clear-cut                                    Funds to be put to Better Use:
     1          Not Applicable 32       Before the Hurricane(s) - Producers A, B,            $43,460          Management or Operating
                                        and C                                                                   Improvement/Savings
                                        Participant Did Not Meet Definition of
                                        Private Non-industrial Forestland Owner                              Questioned Costs – Recovery
     1                   4                                                                   $86,080
                                        ($86,080) - Producer D                                                      Recommended

                                        Texas Forest Service Accepted Private
                                        Forester Determination of Damage                                     Questioned Costs – Recovery
     2                   6                                                                   $72,830
                                        ($72,830) - Producer I                                                      Recommended

                                        •     Offers Did Not Include All Private
                                              Non-industrial Forestland on
                                              Tract(s) ($508,400) - Producers E, F,
                                              and G
                                        •     Offer Included Land Other Than
                                              Private Non-industrial Forestland
                                              ($2,460) – Producer H
                                                                                                             Funds to be put to Better Use:
     2          Not Applicable32        •     Offer’s Qualifying Percentage Loss             $612,060         Management or Operating
                                              of Merchantable Timber was                                        Improvement/Savings
                                              Miscalculated by Alabama Forestry
                                              Commission Forester ($9,350)
                                              - Producer J
                                        •     Offer Included Forestland Without
                                              Merchantable Timber ($91,850)
                                              - Producer K

                                                              Total                          $814,430




32
   There is no audit recommendation corresponding to this monetary amount, because, during the audit, FSA corrected the offer/contract to preclude
issuance of incorrect payments. No further corrective action is needed.
USDA/OIG-A/03601-24-KC                                                                                                              Page 19
Exhibit B – Summary of Errors
                                                                                                                              Exhibit B – Page 1 of 1

                                                                                                                Original                 Incorrect
                                        County,                                                                 Payment                  Payment
     Error Type       Producer                                         Detail of Error
                                         State                                                                Amount (over             Amount (over
                                                                                                               10 years) 33             10 years) 34
                                        Marion             Clear-cut acres before hurricanes –
                           A                                                                                       $29,610                 $10,510
                                      County, MS               some acres are not eligible
                                        Marion             Clear-cut before hurricanes – offer
 Procedures                B                                                                                       $23,900                 $23,900
                                      County, MS                  determined ineligible
were not clear
                                        Hardin             Clear-cut acres before hurricanes –
                           C                                                                                       $27,050                  $9,050
                                      County, TX                 some acres not eligible
                                       Escambia            Producer owns sawmill – producer
                           D                                                                                       $86,080                 $86,080
                                      County, AL                 eligibility questionable
      Subtotal                                                                                                                            $129,540
                                        Mobile               Did not offer all acres – offer not
                           E                                                                                       $1,260                   $1,260
                                      County, AL                     eligible as offered
                                        Mobile               Did not offer all acres – offer not
                           F                                                                                       $7,140                   $7,140
                                      County, AL                     eligible as offered
                                        Hardin               Did not offer all acres – offer not
                           G                                                                                      $500,000                $500,000
                                      County, TX                     eligible as offered
Administrative                          Hardin              Ineligible acres coded as eligible –
                           H                                                                                      $115,300                  $2,460
   Errors                             County, TX                  some acres not eligible
                                                          Texas Forest Service accepted private
                                        Hardin
                            I                              forester determination of damage–                     $56,000 35                $72,830
                                      County, TX
                                                                    offer not eligible
                                       Escambia            Incorrect percent of damage – offer
                            J                                                                                      $9,350                   $9,350
                                      County, AL                  determined ineligible
                                       Escambia             Incorrect eligible acres entered by
                           K                                                                                      $132,000                 $91,850
                                      County, AL              FSA – some acres not eligible
   Subtotal                                                                                                                               $684,890
 Grand Totals                                                                                                     $987,690                $814,430




33
  These figures represent the projected contract amounts of the applications at the time of our review.
34
  These figures represent the ineligible amounts prior to corrective action by county office personnel.
35
  At the time of our review, this producer had not offered all eligible acres making his projected payment $56,000. The county office corrected the offered
acreage amount, making his projected payment $72,830.
USDA/OIG-A/03601-24-KC                                                                                                                       Page 20
Exhibit C – Agency Response
                              Exhibit C – Page 1 of 23




USDA/OIG-A/03601-24-KC                    Page 21
                         Exhibit C – Page 2 of 23




USDA/OIG-A/03601-24-KC                 Page 22
                         Exhibit C – Page 3 of 23




USDA/OIG-A/03601-24-KC               Page 23
                         Exhibit C – Page 4 of 23




USDA/OIG-A/03601-24-KC               Page 24
                         Exhibit C – Page 5 of 23




USDA/OIG-A/03601-24-KC               Page 25
                         Exhibit C – Page 6 of 23




USDA/OIG-A/03601-24-KC               Page 26
                         Exhibit C – Page 7 of 23




USDA/OIG-A/03601-24-KC               Page 27
                         Exhibit C – Page 8 of 23




USDA/OIG-A/03601-24-KC               Page 28
                         Exhibit C – Page 9 of 23




USDA/OIG-A/03601-24-KC               Page 29
                         Exhibit C – Page 10 of 23




USDA/OIG-A/03601-24-KC                 Page 30
                         Exhibit C – Page 11 of 23




USDA/OIG-A/03601-24-KC                 Page 31
                         Exhibit C – Page 12 of 23




USDA/OIG-A/03601-24-KC                 Page 32
                         Exhibit C – Page 13 of 23




USDA/OIG-A/03601-24-KC                 Page 33
                         Exhibit C – Page 14 of 23




USDA/OIG-A/03601-24-KC                 Page 34
                         Exhibit C – Page 15 of 23




USDA/OIG-A/03601-24-KC                 Page 35
                         Exhibit C – Page 16 of 23




USDA/OIG-A/03601-24-KC                 Page 36
                         Exhibit C – Page 17 of 23




USDA/OIG-A/03601-24-KC              Page 37
                         Exhibit C – Page 18 of 23




USDA/OIG-A/03601-24-KC                 Page 38
                         Exhibit C – Page 19 of 23




USDA/OIG-A/03601-24-KC                 Page 39
                         Exhibit C – Page 20 of 23




USDA/OIG-A/03601-24-KC                Page 40
                         Exhibit C – Page 21 of 23




USDA/OIG-A/03601-24-KC                 Page 41
                         Exhibit C – Page 22 of 23




USDA/OIG-A/03601-24-KC                 Page 42
                         Exhibit C – Page 23 of 23




USDA/OIG-A/03601-24-KC                 Page 43
Informational copies of this report have been distributed to:

Administrator, FSA
   Attn: Agency Liaison Officer                                 (3)
Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
   Director, Planning and Accountability Division               (1)
